September 11, 2013

Mr. William Hammink
    Mission Director, Afghanistan
    U.S. Agency for International Development (USAID)

Dear Mr. Hammink:

On January 29, 2013, I wrote to share the results of an analysis SIGAR conducted in conjunction with
both the Criminal Investigation Task Force (CITF) and the National Geospatial-Intelligence Agency
(NGA) on the accuracy of data contained in the Afghanistan Infrastructure and Security Cartography
System (AISCS). 1 AISCS was developed by International Relief and Development, Inc. (IRD), a USAID
contractor, as a web-based geospatial database intended to provide a comprehensive and accurate
picture of infrastructure development in Afghanistan. Our letter noted problems with the data’s
accuracy and completeness, notably that the geographic coordinates for a number of the sites
appear to be incorrect or could not be verified solely through geospatial means.

In response to our letter, USAID directed IRD to conduct a review of the database, with particular
focus on the 42 out of 227 sample records that NGA identified as having either incorrect or
inconclusive coordinates in AISCS. In a March 9, 2013, letter, USAID provided SIGAR with the results
of IRD’s review. In summary, USAID’s letter stated that IRD was subsequently able to locate 41 of
the 42 schools using aerial imagery and site visit reports. Nine of these schools had coordinates that
were incorrectly entered into the AISCS system. IRD located these schools and corrected the
coordinates in the database. The one school IRD was unable to locate will need to be revisited to
verify its correct geospatial coordinates as it was last visited in November 2007.

While we commend USAID for responding promptly to our letter and for correcting the coordinates
for nine of the schools, we continue to question the accuracy of AISCS for many of the structures
NGA initially identified as having inaccurate or inconclusive coordinates.

First, it is important to note that USAID’s March 9 letter states that IRD was able to locate 41 of the
42 “schools.” In contrast, IRD’s review accompanying USAID’s letter states only that it was able to
locate “structures” at or near the questioned coordinates using aerial imagery and site visit reports.
NGA’s analysis, as summarized in our January 29, 2013, letter, did not dispute the presence of
“structures” at the AISCS coordinates; rather, it called into question whether those coordinates
were the correct locations of schools.

SIGAR provided USAID’s March 9 letter and the results of IRD’s review to NGA for comparison with
its original analysis. NGA concurred with IRD’s review on the location of only 12 of the 41 schools
IRD located. In eight of those 12 cases, NGA’s concurrence was based on new coordinates provided
by IRD in response to our January 29, 2013, letter. In seven separate cases, NGA was unable to
determine whether the structures identified by IRD are schools using the resources at its disposal. In

1 SIGAR Alert 13-1, National Geospatial-Intelligence Agency Analysis on Afghanistan Infrastructure and Security

Cartography System, January 29, 2013.
two more cases, the geospatial coordinates in the document provided to SIGAR by USAID detailing
IRD’s review were illegible.

Most importantly, NGA continues to dispute the geospatial coordinates of the remaining 20 schools
identified in our January 29, 2013, letter. In most of these 20 cases, NGA disagreed with IRD’s
assessment because NGA’s analysis shows that the structures identified by the geospatial
coordinates in IRD’s review are not schools. For example, the structure in the aerial imagery and
geospatial coordinates that is identified in IRD’s review as the Qara Ghuzli Primary School is,
according to NGA, a mosque. In other cases, NGA estimated that the nearest school is up to 4
kilometers away from the structures identified in IRD’s review. IRD’s inability to distinguish between
schools and other structures indicates that problems remain with the AISCS database.

As stated in our January 29 letter, SIGAR recognizes the challenges of infrastructure data collection
and location verification, given the security and logistical conditions in Afghanistan. I also welcome
USAID’s efforts to further improve the AISCS database. However, while most of the AISCS data on
school location appear to be accurate, there are still problems to be resolved. As NGA’s review
shows, IRD’s statement that “structures” are present at these coordinates is not a sufficient answer
to these problems.

We encourage you to continue your work in collaboration with other government agencies to
ensure the most comprehensive and accurate infrastructure data are available to assist in the
reconstruction of Afghanistan.

Sincerely,




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction
